     Department of Homeland Security





        FEMA Public Assistance Grant Funds
       Awarded to Long Beach School District,
              Long Beach, Mississippi




DA-12-02                                    December 2011

December 1, 2011
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We reviewed judgmentally selected samples of project costs (generally based on dollar value);
interviewed District, MEMA, and FEMA personnel; reviewed the District’s procurement policies
and procedures; reviewed applicable federal regulations and FEMA guidelines; and performed
other procedures considered necessary under the circumstances to accomplish our audit
objective. We did not assess the adequacy of the District’s internal controls applicable to its
grant activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the District’s method of accounting for disaster-related costs and its
policies and procedures for administering activities provided for under the FEMA award.


                                    RESULTS OF AUDIT

The District accounted for expenditures on a project-by-project basis, as required by federal
regulations and FEMA guidelines. However, the District did not reduce eligible project costs for
insurance recoveries totaling $439,950. In addition, it did not always comply with federal grant
procurement procedures and cost documentation requirements, resulting in $632,457 of
ineligible and unsupported costs.

Finding A: Duplication of Benefits

The District did not reduce eligible project costs for $439,950 of insurance recoveries.
According to Section 312(a) of the Robert T. Stafford Disaster Relief and Emergency Assistance
Act, as amended, FEMA funds cannot be used for expenditures recoverable from another federal
program, insurance, or any other source. Also, according to 44 CFR 206.250(c), actual and
anticipated insurance recoveries shall be deducted from otherwise eligible costs.

The District received $1,848,813 in proceeds from its commercial property insurance policy, of
which $593,060 was deducted from otherwise eligible project costs. However, the District also
received $1 million from its wind policy, but failed to deduct $439,950 of the proceeds
applicable to work authorized under Project 6598 ($354,345) and Project 7507 ($85,605).
During our fieldwork, FEMA officials concurred with this finding and deobligated the insurance
proceeds in question from the appropriate projects.

Finding B: Contracting Procedures

The District did not always comply with federal grant procurement procedures and cost
documentation requirements. Under Project 8794, the District entered into a cost-plus­
percentage-of-cost contract to establish a temporary campus using trailers for Harper
McCaughan Elementary School. The District claimed $997,557 in costs related to this contract.
However, 44 CFR 13.36(f)(4) prohibits the use of a cost-plus-percentage-of-cost method of
contacting under federal awards. Also, according to item 19 of the State-Local Disaster

                                                2

Assistance Agreement, “The applicant will not enter into cost-plus-percentage-of-cost contracts
for completion of disaster restoration or repair work.” In addition to the prohibited contracting
method, we noted the following issues in our review of costs claimed under the contract:

   •	 Supporting Documentation. The District did not have adequate documentation to support
      $575,369 of contract charges. The District and contractor provided a summary of costs to
      support the charges, but did not have detailed invoices. Without such invoices, we were
      unable to verify the accuracy and validity of the contractor’s charges. Cost principles at
      2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments, Appendix
      A, Section C.1.j, state that a cost must be adequately documented to be allowable under
      federal awards.

   •	 Price Analysis. According to 44 CFR 13.36(f)(1), a cost or price analysis is required in
      connection with every procurement action, including contract modifications, to determine
      the reasonableness of the contractor’s proposed price. The District awarded a
      noncompetitive contract to support authorized work under Project 8794. The
      noncompetitive contract was justified because of the urgent need to reopen the schools
      following the disaster. However, the District failed to perform a price analysis to
      determine if the contractor’s proposed price was fair and reasonable.

   •	 Contract Monitoring. According to 44 CFR 13.36(b)(2), grantees and subgrantees will
      maintain a contract administration system which ensures that contractors perform in
      accordance with the terms, conditions, and specifications of their contracts. However, the
      District did not provide sufficient evidence that it monitored the contractor’s activities.

According to 44 CFR 13.43(a)(2), a grant recipient’s material failure to comply with applicable
statutes or regulations can result in the disallowance of all or part of the cost of the activity or
action not in compliance. Although the District used a prohibited method of contracting to
complete authorized work, we are not questioning the total contract costs of $997,557 because
(1) there was an urgent need to get the schools re-opened, and (2) $365,100 of the costs that were
supported were reasonable based on our analysis of average costs for similar work in the area.
Therefore, we question $632,457 of costs claimed under the contract: $575,369 for unsupported
contract charges, $34,522 for contractor mark-ups on the unsupported charges, and $22,566 for
contractor taxes on these amounts.

District Response. District officials did not agree with our finding, saying that the costs should
be allowed because the contract was awarded prior to their state-applicant agreement and that
other school districts were using similar types of contracts. They also believed that their
documentation and monitoring was adequate because both the state and FEMA approved
reimbursement of the project. They provided a packet of written comments and documentation
regarding the finding for our consideration after the exit conference on September 8, 2011.

OIG Response. Although the contract was entered into prior to the state-applicant agreement and
the costs were accepted by the state and FEMA during the reimbursement process, cost-plus­
percentage-of-cost contracts are prohibited under federal regulations. Further, the review or
acceptance of costs by a federal agency does not affect its right to disallow costs and recover

                                                 3

funds on the basis of a later audit (44 CFR 13.51(a)). Finally, the comments and documentation
given to us subsequent to the exit conference provided no new information to cause us to change
our finding.


                                         RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

        Recommendation #1: Disallow $439,950 of project costs that are ineligible for FEMA
        funding because they are covered by insurance (finding A). 2

        Recommendation #2: Instruct the District to comply with federal procurement
        regulations when acquiring goods and services under the FEMA award (finding B).

        Recommendation #3: Disallow $632,457 of unsupported contract costs under Project
        8794 (finding B).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with the District, MEMA, and FEMA officials during our audit.
We also provided a written summary of our findings and recommendations in advance to these
officials and discussed them at the exit conference held on September 8, 2011. District officials
agreed with finding A, but disagreed with finding B. Their comments, where appropriate, are
included in the body of the report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. To promote transparency, this report will be posted
to our website, with the exception of sensitive information identified by your office. Significant
contributors to this report were David Kimble, Larry Arnold, John Skrmetti, and Rickey Smith.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.



2
  FEMA officials concurred with this recommendation and deducted the insurance proceeds in question from the
appropriate projects prior to issuance of this report. Therefore, we consider this finding resolved and closed.

                                                        4

cc:   	Administrator, FEMA
      Audit Liaison, FEMA Mississippi Recovery Office
      Audit Liaison, FEMA Region IV
      Audit Liaison, FEMA (Job Code G-11-022)
      Audit Liaison, DHS




                                           5

                                                                                    EXHIBIT

                              Schedule of Projects Audited 

                        August 29, 2005 through February 15, 2011 

                               Long Beach School District 

                            FEMA Disaster No. 1604-DR-MS 



              Project        Amount          Amount        Amount
             Number          Awarded         Claimed      Questioned      Finding
               6314          $1,677,716     $1,662,419             $0
               6319             193,570        192,867              0
               6322           5,291,990      5,290,220              0
               6324           3,797,719      3,772,379              0
               6586             216,751        214,911              0
               6598           1,495,771        422,716       354,345         A
               8794           1,065,474      1,066,001       632,457         B
              11054             443,149        443,149              0
            Insurance
           Review Only:
               7507             102,187     102,187            85,605        A
               Total        $14,284,327 $13,166,849       $1,072,407



Note: Projects 6314, 6319, 6322, 6324, 6586, and 6598, plus four small projects, comprise
Improved Project 11045.




                                              6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, e-mail your request to our
OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov, or visit our OIG
websites at www.dhs.gov/oig or www.oig.dhs.gov.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
